Report No. DODIG-2013-075                   April 26, 2013




     Improvements Needed in U.S. Special Operations
     Command Global Battlestaff and Program Support
                  Contract Oversight
Report No. DODIG-2013-XXX                                   February XX, 2012


Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CAO                           Contract Administration Office
COR                           Contracting Officer’s Representative
DCMA                          Defense Contract Management Agency
DPAP                          Defense Procurement and Acquisition Policy
EDA                           Electronic Document Access
FAR                           Federal Acquisition Regulation
GBPS                          Global Battlestaff and Program Support
IDIQ                          Indefinite-Delivery Indefinite-Quantity
PMR                           Procurement Management Review
PWS                           Performance Work Statement
SOFARS                        Special Operations Federal Acquisition Regulations
                                 Supplement
USSOCOM                       U.S. Special Operations Command
WAWF                          Wide Area Workflow
                                .INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1 500


                                                                            April 26, 2013

MEMORANDUM FOR COMMANDER, U.S. SPECIAL OPERATIONS COMMAND

SUBJECT: Improvements Needed in U.S. Special Operations Command Global
         Battlestaff and Program Support Contract Oversight
         (Report No. DODIG-2013-075)

We are providing this report for review and comment. U.S. Special Operations
Command officials did not properly administer the Global Battlestaff and Program
Support task orders in accordance with Federal guidance. Specifically, contracting
officers awarded task orders with unclear requirements and without measurable
outcomes. In addition, task orders may have included inherently governmental duties and
elements of a personal service contract. Further, contracting officers did not adequately
support fair and reasonable price determinations for 20 modifications, totaling
approximately $38.8 million, or validate that contractors were entitled to approximately
$50.9 million paid on Global Battlestaff and Program Support task orders. We
considered management comments on a draft of this report when preparing the final
report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments
from the Director, Special Operations Research, Development, and Acquisition Center
were generally responsive. However, the Director' s comments were nonresponsive for
Recommendation B.3 and partially responsive for Recommendations B.4 and C .l.
Therefore, we request that the Director, Special Operations Research, Development, and
Acquisition Center, provide comments on Recommendations B.3, B.4, and C.l by
May 24,2013. ·

If possible, send a Microsoft Word document (.doc) file and portable document format
(.pdf) file containing your comments to audjsao@dodig.mil. Portable document format
(.pdf) copies of your comments must h~tve the actual signature of the authorizing official
for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8901. If you desire, we will provide a formal briefing on the results.




                                         Daniel R. Blair
                                         Deputy Inspector General
                                          for Auditing
Report No. DODIG-2013-075 (Project No. D2012-D000JB-0043.000) April 26, 2013



                Results in Brief: Improvements Needed in U.S.
                Special Operations Command Global Battlestaff
                and Program Support Contract Oversight

What We Did                                                   requirements before certifying invoices for payment.
                                                              This occurred because contracting officers approved
This report focuses on the U.S. Special Operations            “scheduled interval” payments on an exception basis
Command (USSOCOM) Global Battlestaff and                      without validating services were received and
Program Support (GBPS) contract. For this audit, we           conformed to contract requirements.
determined whether USSOCOM properly
administered task orders awarded under the GBPS               Although recommended in two prior DoD Office of
contract, valued at approximately $231 million, as of         Inspector General audit reports, USSOCOM
November 16, 2011.                                            corrective actions taken to address previous
What We Found                                                 recommendations did not adequately improve
                                                              controls over its contracting processes.
USSOCOM contracting officers did not properly
administer GBPS task orders in accordance with                The lack of appropriate contract award and
Federal guidance. For the 28 task orders reviewed,            administration put USSOCOM at risk of not getting
contracting officers awarded 26 task orders with              the best value for GBPS services and improperly
unclear requirements, 24 task orders that did not             executing future task order options, valued at
always have measureable outcomes, 9 task orders that          $206 million.
may have included inherently governmental duties,
and 24 task orders with elements of a personal                What We Recommend
services contract. This occurred because contracting          Among other recommendations, we recommend the
officers did not ensure task order terms complied with        Director, Special Operations Research, Development,
Federal Acquisition Regulation requirements to                and Acquisition Center, implement controls to ensure
include clear, specific, and objective terms with             task orders contain clearly defined performance work
measurable outcomes or review task orders for                 statements; comply with Federal and DoD regulations
inherently governmental functions and elements of a           controls to verify contracting personnel perform price
personal services contract. USSOCOM personnel                 analysis for modifications over $700,000; and
preferred unclear task order requirements to maintain         develop procedures for the contracting officer or
flexibility and to support emerging tasks.                    contracting officer representatives to validate
                                                              contractor payment requests before certifying
In addition, contracting officers did not adequately          invoices for payment.
support determinations of fair and reasonable pricing
for 20 modifications, totaling approximately                  Management Comments and
$38.8 million, as required by Federal guidance.
Contracting officers stated that time constraints
                                                              Our Response
prevented them from documenting their reviews of              Comments from the Director, Special Operations
fair and reasonableness price analyses. Further,              Research, Development, and Acquisition Center were
contracting officers did not validate that contractors        generally responsive. However, we request that the
were entitled to approximately $50.9 million paid on          Director provide comments to Recommendations B.3,
task orders. Specifically, contracting officers did not       B.4, and C.1 by May 24, 2013. Please see the
verify that contractor services were performed or that        recommendations table on the back of this page.
services received from the contractor met contract




                                                          i
Recommendations Table

       Management                   Recommendations        No Additional
                                  Requiring Comment    Comments Required
Director, Special Operations   B.3, B.4, C.1          A.1, A.2, A.3, A.4,
Research, Development, and                            A.5.a, A.5.b, A.5.c,
Acquisition Center                                    A.5.d, A.5.e, A.5.f, B.1,
                                                      B.2, C.2

Please provide comments by May 24, 2013.




                                       ii
Table of Contents
Introduction                                                                       1

      Objective                                                                   1
      Background                                                                  1
      Review of Internal Controls                                                 2
Finding A. Improvements Needed in the U.S. Special Operations Command
Task Order Administration                                                          4

      Contracting Officers Awarded Task Orders With Unclear Requirements          4
      Outcomes Not Always Measurable                                              6
      Task Orders May Have Included Inherently Governmental Duties                6
      Task Orders Contained Elements of a Personal Service Contract               7
      Task Order Terms Not Well Defined and the Problem Was
        Previously Reported                                                       9
      Task Orders Not Reviewed for Inherently Governmental Functions and
        Personal Service Contract Elements                                         9
      Obtaining the Best Value for Contracted Services Requires Continual Focus   10
      Conclusion                                                                  10
      Management Comments on the Finding and Our Response                         10
      Recommendations, Management Comments, and Our Response                      11
Finding B. Modifications Awarded Without Price Reasonableness
Determinations                                                                    15

      Price Reasonableness Guidance                                               15
      Contracting Officers Did Not Determine Fair and Reasonable Price for
         Modifications                                                            15
      Time Constraints Should Not Prevent Documenting Price Reasonableness
         Determinations                                                           16
      Prior Problems Determining Fair and Reasonable Prices Were Not Corrected    17
      U.S. Special Operations Command May Not Be Receiving the Best Value         18
      Conclusion                                                                  18
      Management Comments on the Finding and Our Response                         18
      Recommendations, Management Comments, and Our Response                      18
Finding C. Improvements Needed in Global Battlestaff and Program Support
Contract Payment Certification Process                                            21

      Use of Electronic Contract Payments                                         21
      Contracting Officers Paid Contractors Without Validating Payments           22
      Contracting Officers Improperly Approved Invoices for Payment               23
      Defense Contract Management Agency Relinquished the Administrative
        Contracting Officer’s Responsibilities                                    23
Table of Contents (cont’d)
      Action Needed to Improve Payment Certification Process                     24
      Conclusion                                                                 24
      Management Comments on the Finding and Our Response                        24
      Recommendations, Management Comments, and Our Response                     24

Appendixes

      A. Scope and Methodology                                                   26
             Use of Computer-Processed Data                                      28
             Use of Technical Assistance                                         28
             Prior Coverage                                                      29
      B. Potential Inherently Governmental Language                              30
      C. Identified Task Order Issues                                            32
      D. Management Comments on the Draft Report and
            Our Response                                                         33

Management Comments

U.S. Special Operations Command, Special Operations Research, Development, and
          Acquisition Center Comments                                            41
Introduction
Objective
Our objective was to determine whether U.S. Special Operations Command
(USSOCOM) provided adequate oversight of the Global Battlestaff and Program Support
(GBPS) contract. We focused the scope of the audit on contracting officers’
administration of the task orders awarded under the GBPS contract. Specifically, we
determined whether USSOCOM personnel properly administered task orders awarded
under the GBPS contract. See Appendix A for a discussion of the scope and
methodology.

We also followed up on recommendations made in two DoD Office of Inspector General
(OIG) reports: Report No. D-2009-102, “Price Reasonableness Determinations for
Contracts Awarded by the U.S. Special Operations Command,” September 18, 2009; and
Report No D-2009-083, “Logistics Support Contracting for the United States Special
Operations Command,” May 28, 2009.

Background
The mission of USSOCOM is to provide fully capable Special Operation Forces to
defend the United States and its interests and to synchronize the planning of global
operations against terrorist networks. The Commander, USSOCOM, delegated
acquisition authorities for USSOCOM to the Acquisition Executive, Special Operations
Research, Development, and Acquisition Center. The Directorate of Procurement, a
subordinate unit of Special Operations Research, Development, and Acquisition Center,
awarded the GBPS contract on April 30, 2010.

GBPS Contract Award
The GBPS contract is an indefinite-delivery, indefinite-quantity (IDIQ) contract for
services or supplies with a $1.5 billion ceiling covering a 3-year base and a 2-year option
period. The GBPS IDIQ contract was awarded to four prime contractors under contracts
H92222-10-D-0016, H92222-10-D-0017, H92222-10-D-0018, and H92222-10-D-0019.
The four prime contracts require contractors to compete for work after USSOCOM
officials submit a request for proposal in the areas of operational and intelligence support,
acquisition and engineering support, and business operations and financial management
support. The GBPS IDIQ contract allows for five task order types: firm-fixed price,
firm-fixed price level of effort, fixed price incentive fee, cost-plus-fixed fee, and cost-
plus-incentive fee. As of November 16, 2011, there were 731 task orders, valued at
approximately $231 million, under the prime contracts.




1
  The universe contains 74 task orders, including 1 classified task order with an unknown value; however,
the audit team did not include the classified task order in the universe for sample selection.

                                                    1
Service and IDIQ Contracts
Federal Acquisition Regulation (FAR) Part 37, “Service Contracting,” defines a service
contract as a contract that directly engages the time and effort of a contractor whose
primary purpose is to perform an identifiable task rather than to furnish an end item of
supply. Performance-based contracts for services must include measurable performance
standards (such as quality, timeliness, and quantity). A multiple award IDIQ contract
allows for streamlining of the contracting process because negotiations are made with
select prime contractors. The Government uses an IDIQ contract when it cannot
predetermine, above a specified minimum, the precise quantities of supplies or services
that will be required during the contract period. In addition, IDIQ contracts allow for
flexibility in both quantities and delivery scheduling and ordering of supplies or services
after requirements materialize through task order issuance. Task orders under IDIQ
contracts must clearly describe all services to be performed or supplies to be delivered, so
the full cost or price for the performance of the work can be established when the order is
placed. Task orders must be within the scope, issued within the period of performance,
and within the maximum value of the contract.

GBPS Contract Oversight Roles and Responsibilities
The FAR establishes roles and responsibilities for DoD contracting and agency officials.
FAR Subpart 1.6, “Career Development, Contracting Authority, and Responsibilities,”
states that contracting officers must ensure performance of all necessary actions for
effective contract administration, compliance with the terms of the contract, and
safeguarding USSOCOM’s interests in its contractual relationships. In addition,
FAR 42.302, “Contract Administration Functions,” permits contracting officers to
delegate contract administration to a contract administration office (CAO). CAO
responsibilities for the GBPS contract were delegated to the Defense Contract
Management Agency (DCMA) until August 2, 2011, when DCMA returned the contract
administrative function to USSOCOM. Whether contract administration is delegated to a
CAO or not, a contracting officer retains responsibility for ensuring that all contract
administration functions are performed. Contracting officers must designate and
authorize, in writing, a contracting officer’s representative (COR) on all contracts and
task orders. CORs are responsible for ensuring that contractors comply with all contract
requirements and that overall performance is commensurate with the level of payments
made throughout the life of the contract. COR activities should be tailored to the dollar
value and complexity of the specific service contract, including surveillance of contractor
performance.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses within USSOCOM regarding contract administration. Specifically,
contracting officers did not follow FAR requirements to ensure task orders included clear,
specific, and objective terms with measurable outcomes or review task orders for

                                             2
inherently governmental functions and elements of a personal services contract.
In addition, USSOCOM officials did not take action to address recommendations made in
DoD OIG Report No. D-2009-102 to improve controls over its contracting processes.
Specifically, the recommendations requested USSOCOM officials to implement FAR
procedures for performing and documenting fair and reasonable price determinations.
Furthermore, contracting officers approved “scheduled interval” payments on an
exception basis and contracting officers certified invoice payments in Wide Area
Workflow (WAWF) without validating services were received and conformed to contract
requirements. We will provide a copy of the report to the senior official responsible for
internal controls in USSOCOM.




                                           3
Finding A. Improvements Needed in the
USSOCOM Task Order Administration
USSOCOM contracting officers did not properly administer GBPS task orders in
accordance with Federal guidance. Specifically, for 28 task orders reviewed,2 contracting
officers:
       awarded 26 task orders with unclear requirements in the performance work
        statements (PWSs),
       awarded 1 task order without any identified outcomes and 24 task orders that did
        not always have measurable outcomes,
       may have included inherently governmental duties in 9 task orders, and
       awarded 24 task orders that contained elements of a personal service contract.
This occurred because contracting officers did not validate that task order terms complied
with FAR requirements. Specifically, a contracting officer stated USSOCOM personnel
preferred task order PWSs with vague requirements to maintain flexibility and to support
emerging tasks. In addition, the contracting officer stated that while the basic GBPS
contract was reviewed for inherently governmental functions and was deemed
nonpersonal in nature, the task orders were not reviewed for inherently governmental
functions or personal services.

The lack of appropriate contract award and administration put USSOCOM at risk of not
getting the best value for GBPS services and improperly executing future task order
options, valued at $206 million. Specifically, contracting officers increased the risk of
contractors not performing effectively and not being able to hold contactors accountable
for services not meeting the agency’s needs and intended task order requirements.
Contracting officers increased the risk for potential waste and abuse and did not protect
the interests of USSOCOM. In addition, contracting officers may not have efficiently
used DoD funds.

Contracting Officers Awarded Task Orders With
Unclear Requirements
For 28 task orders reviewed, contracting officers awarded 26 with unclear requirements
in the PWS. FAR Subpart 16.5, “Indefinite-Delivery Contracts,” states that task orders
under IDIQ contracts must clearly describe all services to be performed or supplies to be
delivered, so the full cost or price for the performance of the work can be established
when the order is placed. In addition, FAR Subpart 2.1, “Definitions,” states that PWSs
are statements of work for performance-based acquisitions that describe the required
results in clear, specific, and objective terms. Further, DoD issued the “Guidebook for


2
 See Appendix C for a break out of the 28 task orders and the associated concerns identified for each task
order.

                                                     4
Performance-Based Services Acquisition (PBSA) in the Department of Defense,”
December 2000.3 The Guidebook states that task orders require clear, precise, definitive
PWSs because offerors interested in proposing will interpret words within the PWS to
identify potential costs and ability to compete with other offerors. The Guidebook also
stated that developing a PWS involves a series of analysis-oriented steps to help identify
and define the requirement, such as “what, when, where, who.” In addition, the
Guidebook further stated certain words, such as “and/or and as required,” can confuse
rather than clarify requirements. However, the 26 task orders were not always clear
enough to determine what specific services were required. For example, we identified
the following unclear requirements in the task order PWS listed below.

       Contract H92222-10-D-0018, task order 11 stated for the Systems Engineering
        and Configuration Management Support, the contractor “will submit reports or
        debriefs, and when appropriate, we will provide a technical assessment of the
        associated risks.” However, this requirement is unclear as it does not define the
        type of “reports and debriefs,” or the “appropriate” time to perform technical
        assessments (for example, monthly, quarterly, or annually).
       Contract H92222-10-D-0018, task order 11 stated the contractor “will attend
        program Test and Evaluation working groups, attend System Safety working
        groups, witness tests and demonstrations when required, and visit production and
        manufacturing facilities when required.” However, the terms are open-ended and
        do not state objectively how often the contractor is required to attend the working
        groups. Open-ended requirements are unclear and may not allow the contractor to
        calculate fair costs for the requirements.
       Contract H92222-10-D-0019, task order 7 stated the “contractor shall perform
        cost data collection and analysis, on an as needed basis over the life of the task
        order, to identify and/or develop cost factors and/or CERs [Cost Estimating
        Relationships] and prepare a LCCE [Life Cycle Cost Estimate] for new systems.”
        However, “and/or,” creates ambiguity as it may indicate that both requirements
        are true or that only one is true, and it is unknown which of the two requirements
        the contractor should fulfill.
See Appendix C for the list of 26 task orders with unclear PWS requirements. To
facilitate compliance with FAR requirements, USSOCOM officials need to implement
controls ensuring contracting officers award task orders with clearly defined performance
work statements. In addition, USSOCOM officials should require a review of existing
task orders for unclear requirements and modify or terminate task orders not complying
with FAR requirements.




3
 The Guidebook for the Acquisition of Services,” July 20, 2011, updates the Guidebook for Performance-
Based Services Acquisition (PBSA) in the Department of Defense,” December 2000. We used both
guidebooks since the update occurred during the timeframe of our task order sample. The guidebooks
provide suggestions on writing and reviewing PWSs.

                                                   5
Outcomes Not Always Measurable
Contracting officers awarded 1 task order that did not have any outcomes and awarded
24 task orders that did not always have measurable outcomes. FAR Part 2, “Definitions
of Words and Terms,” states that PWSs shall contain measurable outcomes, and
FAR part 37 states that performance-based contracts for services shall include
measurable performance standards (such as quantity, timeliness, and quality) and requires
contracts to have clearly defined and appropriate PWSs, ensuring performance meets the
agency’s requirements. Contract H92222-10-D-0018, task order 13 did not list any
outcomes to be provided by the contractor. The task order only identified personnel
capabilities and minimum skills necessary to perform specific functional requirements.
The task order should have contained the number of personnel hours required to perform
a specific function, identified a deliverable product, and identified a timeframe for
delivering the product. The following are examples from task orders without measurable
outcomes.
      Contract H92222-10-D-0017, task order 5 contained outcomes for electronic
       resumes, financial/budget guidance and procedures, reviews of complex regional
       documents, and cultural advice. However, some of the outcomes were not
       measurable in terms of quantity or how USSOCOM would assess quality of the
       required content.
      Contract H92222-10-D-0017, task order 11 stated, “outcomes vary dependent on
       mission requirement changes and may include items such as; terrorism threat
       level assessments, group or individual profiles, threat warnings, link analysis,
       special assessments, and forecasts.” However, “may include items such as” does
       not identify how many (quantity) and when (delivery date) those outcomes are
       required.
      Contract H92222-10-D-0018, task order 4 referred to outcomes as “outcomes can
       include, but are not limited to the following.” The outcomes included tailored
       information or decision briefings or papers, discussion papers, issue specific
       studies, official messages, and operational and administrative calendars.
       However, some of the outcomes were not measurable in terms of quantity or how
       USSOCOM would assess quality of the required content.
See Appendix C for the list of 24 task orders that did not always have measurable
outcomes and 1 task order that did not have any outcomes. USSOCOM officials should
require a review of existing task orders for unmeasureable outcomes and modify or
terminate task orders not complying with FAR requirements.

Task Orders May Have Included Inherently
Governmental Duties
Contracting officers awarded nine task orders that may have included inherently
                                          governmental duties. Special Operations
  Contracting officers awarded nine       Federal Acquisition Regulations Supplement
  task orders that may have included      (SOFARS) Subpart 5607.5, April 2008 states,
    inherently governmental duties.       “contracting officers shall ensure that each

                                           6
contracting requirement for services is accompanied by a written determination from the
requiring activity that none of the functions contained in the requirement are inherently
governmental, as defined in FAR 7.503.” FAR Subpart 7.5, “Inherently Governmental
Functions,” states contracts shall not be used for the performance of inherently
governmental functions. However, 9 of the 28 task orders we reviewed may have
included inherently governmental duties as defined by FAR subpart 7.5. For example,
      contract H92222-10-D-0018, task orders 3 and 4 required the preparation of
       congressional testimonies. During the audit, the COR stated the inherently
       governmental language was erroneously included in the two task orders and took
       action to remove the inherently governmental language. However, the contracting
       officers did not make a determination as to whether the contractor was performing
       the inherently governmental functions listed in the PWSs.
      contract H92222-10-D-0018, task order 7 stated the contractor would:
           negotiate, administer, extend, and prepare termination documents and renegotiate contracts;
           formulate and coordinate procurement proposals; direct and coordinate activities of workers
           engaged in evaluating proposals; evaluate or monitor contract performance to determine
           necessity for amendments or extensions of contracts and compliance to contractual
           obligations; approve or reject requests for deviations from contract specifications and delivery
           schedules; arbitrate claims or complaints occurring in performance of contracts; analyze price
           proposals, financial reports, and other data to determine reasonableness of prices; and may
           serve as liaison officer to ensure fulfillment of obligations by contractors.
The above are duties reserved for DoD contracting personnel that were listed in the PWS
and should not be delegated to contractor personnel. In addition, DoD OIG
Report No. D-2009-083, “Logistics Support Contracting for the United States Special
Operations Command,” May 28, 2009, recommended USSOCOM develop internal
controls to ensure contractors do not perform inherently governmental functions.
Therefore, based on the previous report recommendations and the continued inclusion of
inherently governmental duties, USSOCOM officials should implement procedures to
review task order compliance with Federal and DoD regulations for inherently
governmental functions. Appendix B contains the nine task orders that may require
contractors to perform inherently governmental duties.

Task Orders Contained Elements of a Personal
Service Contract
Contracting officers awarded 24 task orders, valued at approximately $149.5 million, that
contained elements of a personal service contract. FAR 37.103, “Contracting officer
responsibilities,” states that contracting officers must review contract requirements for
the potential of personal service job functions as part of the contracting process.




                                                   7
However, 24 task orders contained at least 4 of the 6 personal service elements identified
in FAR 37.104. For example, contract H92222-10-D-0018, task order 0003 contained the
following personal service elements:
       performance of work by contractor on Government site;
       principal tools and equipment are furnished to the contractor by the Government;
       comparable services, meeting comparable needs, are performed in the same or
        similar agencies using civil service personnel; and
       service provided can reasonably be expected to last beyond 1 year.
FAR 37.104 further states that personal services contracts are characterized by the
employer-employee relationship created between the Government and the contractor’s
personnel. The Government is normally required to obtain its employees by direct hire
under competitive appointment or other procedures required by the civil service laws.
Obtaining personal services by contract, rather than by direct hire, circumvents those
laws unless Congress has specifically authorized acquisition of the services. Table 1
identifies 5 of the 24 task orders with requirements that could create an employer-
employee relationship. In addition, USSOCOM technical representatives stated they
assigned tasks directly to contractors and that contractors were not required to perform
outcomes listed in the PWS, instead contractors answered requests for information on a
daily basis or assigned tasks based on workloads. Appendix C identifies the 24 task
orders that contained at least four elements of a personal service contract. USSOCOM
officials should implement procedures to review task order compliance with Federal and
DoD regulations for personal services.
                   Table 1. Task Order Requirements That Could Create an
                              Employer-Employee Relationship
    Contract        Task Order                     Elements of a Personal Service

                                  “provide subject matter experts (SMEs) to augment manpower for
                                    JMISC [Joint Military Information Support Command] activities
                                    across all organizational functions. Many contract positions will
H92222-10-D-0017         5
                                   fill roles within the JMISC Joint Table of Distribution that remain
                                           unfilled or will support newly established operational
                                                                requirements.”
                                        “Per direction and coordination from the Government, [the
                                         contractor] shall also be responsible for entering data and
                         7
                                  retrieving data and information, as well as regularly scheduled and
                                               ad hoc data extraction and information/reports”
                                   “provide subject matter experts (SME) to augment manpower for
                        13             J7/9 [Training, Knowledge, and Futures] activities across all
H92222-10-D-0018                                          organizational functions.”
                                  “provide contractor manpower augmentation to the staff of the J2X
                        28
                                        Division and the J2-IP [International Programs] Division.”
                                   “provide contractor manpower augmentation to the staff of the J2
                                         JIC OS [Open Source Intelligence] Branch in the form of
                        34
                                          intelligence related support for the OSINT [open source
                                                           intelligence] program.”


                                              8
Task Order Terms Not Well Defined and the Problem
Was Previously Reported
Task order terms were not well defined and were previously reported as a problem.
FAR part 2 states that task order PWSs must contain clear, specific, and objective terms
with measurable outcomes. However, contracting officers stated that USSOCOM
personnel preferred PWSs with unclear requirements to maintain flexibility and to
support emerging tasks. Further, the Office of Defense Procurement and Acquisition
Policy (DPAP) is responsible for conducting peer reviews for service acquisitions with an
estimated value of over $1 billion. DPAP officials informed USSOCOM contracting
officials in memorandum, “Review of Global Battlestaff and Program Support (GBPS)
Solicitation,” September 7, 2009, that the GBPS contract contained tasks that were not
linked to specific outcomes. USSOCOM officials agreed and revised the applicable
section of the GBPS contract to address the concerns of DPAP officials. However,
USSOCOM officials awarded GBPS task orders with unclear requirements. Although
USSOCOM personnel may have preferred flexible task orders to support emerging tasks,
contracting officers must adhere to the FAR and issue task orders with clear, specific, and
measurable outcomes. Therefore, USSSOCOM officials should implement controls to
ensure task orders contain clearly defined performance work statements.

Task Orders Not Reviewed for Inherently Governmental
Functions and Personal Service Contract Elements
A contracting officer stated because the basic GBPS contract was deemed nonpersonal in
nature and the contract was reviewed for inherently governmental functions, subsequent
task orders were not required to be reviewed for personal services or inherently
governmental functions. In addition, issues with inherently governmental functions and
personal service contract elements were identified in DCMA memorandum, “Declination
of delegation for contract administration for contract numbers H92222-10-D-0016,
H92222-10-D-0017, H92222-10-D-0018, H92222-10-D-0019,” August 2, 2011. The
Memorandum states that DCMA does not generally administer contracts for “personnel
support services.” The Memorandum further states that DCMA does not accept
delegations when the contractor is integrated into government operations and the
contracted work is not severable or separated from organic or government performed
work. In addition, DoD OIG Report No. D-2009-083, “Logistics Support Contracting for
the United States Special Operations Command,” May 28, 2009, recommended the
development of internal controls and standard operating procedures to ensure contractors
do not perform inherently governmental functions. USSOCOM officials responded
stating an analysis is performed every other year for commercial activities and they were
updating the Inherently Governmental Commercial Activities review for FY 2009.
USSOCOM officials also stated that contracting officers will ensure that each contracting
requirement for services is accompanied by a written determination from the requiring
activity that none of the functions are inherently governmental. Although USSOCOM
officers took action to address the recommendations and applied the procedures to the




                                            9
basic GBPS contract, they did not apply the procedures to the task orders for inherently
governmental functions and personal services job elements. Consequently, USSSOCOM
officials need to review task orders for FAR compliance and, if appropriate, modify or
terminate task orders that violate FAR requirements for inherently governmental
functions and personal service elements.

Obtaining the Best Value for Contracted Services
Requires Continual Focus
The lack of appropriate contract award and administration put USSOCOM at risk of not
getting the best value for GBPS services and improperly executing future task order option
years, valued at $206 million. Specifically, contracting officers increased the risk of
contractors not performing effectively and not being able to hold contractors accountable
for services that did not meet the agencies’ needs and intended task order requirements.
Further, for task orders containing inherently governmental duties and elements of a
personal services contract, the contracting officer increased the risk of potential waste
and abuse and the award of future task orders that are not in the best interest of
USSOCOM.

Conclusion
Contracting officers did not adhere to FAR requirements for task order administration.
Specifically, contracting officers did not follow FAR subparts 2.1 and 16.5 for task orders
to contain clearly defined performance work statements, FAR subpart 37.6 for
measureable outcomes, FAR subpart 7.5 for inherently governmental duties,
FAR subpart 37.1 for personal services job elements, FAR part 15 for determination of
fair and reasonable prices for modifications over $700,000 (Finding B), and
FAR subpart 32.9 for payments to be made based on receipt of proper invoice and
satisfactory contract performance (Finding C). In addition, contracting officers did not
take appropriate action to address issues identified in recommendations made in
DoD OIG reports and DPAP peer reviews. By not addressing previously identified issues
or implementing recommendations, USSOCOM officials increased the overall risk to the
GBPS contracting processes. Therefore, USSOCOM officials should initiate a review of
contracting officers’ adherence to FAR requirements for GBPS task order administration
and initiate the appropriate corrective action.

Management Comments on the Finding and
Our Response
The Director, Special Operations Research, Development, and Acquisition Center,
provided comments on Finding A. See Appendix D for the Director’s comments on the
finding and our response.




                                            10
Recommendations, Management Comments, and
Our Response
A. We recommend that the Director, Special Operations Research, Development,
and Acquisition Center:

       1. Implement controls to ensure task orders contain clearly defined
performance work statements and comply with Federal and DoD regulations for
inherently governmental functions and personal services job elements.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director
stated USSOCOM believes adequate controls exist. Further, the Director stated
the GBPS contract prohibits the Government and the contractor from engaging in
personal services, except when a task order expressly contains requirements
establishing personal services. Additionally, the Director stated the contracting
officer takes immediate action to remedy any situation that might have the
appearance of (or the contractor is actually conducting) inherently governmental
or personal services activities. The Director stated, regarding clearly defined
work statements, USSOCOM is conforming to FAR and DoD regulations for
PWSs to contain outcomes. Task orders contain the offeror’s PWS in response to
the Government’s Statement of Objectives, and the contractor is contractually
obligated to meet the PWS requirements. In addition, the Director stated the task
orders also contain a Service Delivery Summary and USSOCOM officials use the
Service Delivery Summary to measure the contractor’s performance when
fulfilling the PWS. Finally, the Director stated that USSOCOM officials
completed actions to review the GBPS task orders and remove language that
indicates the contractor is to perform inherently governmental or personal
services. USSOCOM officials modified the task orders accordingly. The
Director stated that USSOCOM will initiate and complete a review of all GBPS
task orders to ensure current and future task orders are compliant with
FAR Subpart 2.1, “Definitions,” and Subpart 16.5, “Indefinite Delivery
Contracts.” The estimated completion date is April 2013.

Our Response
Comments from the Director were responsive. Although the Director did not agree or
disagree with the recommendation, the actions described in his response meet the intent
of our recommendation. No further comments are required.




                                           11
      2. Perform a review of existing task orders for unclear requirements and
unmeasureable outcomes and modify or terminate task orders not complying with
Federal Acquisition Regulation subparts 2.1, 16.5, and 37.6 requirements.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated the
PWS contains requirements that the contractor proposed and the contractor is responsible for
performing. Additionally, the Director stated that USSOCOM GBPS task orders comply
with FAR 37.602. Further, USSOCOM officials execute contracts with flexibility
embedded to ensure the contractor can provide the required services to support the
mission of an evolving, flexible Command that is challenged with changing priorities.
According to the Director, USSOCOM officials use the Service Delivery Summary to
measure the contractor’s performance. USSOCOM planned to initiate and complete a
review of all GBPS task orders to ensure current and future task orders are compliant
with FAR Subpart 37.6, “Performance-Based Acquisition,” and, if appropriate, take any
action warranted. The estimated completion date is April 2013.

Our Response
Comments from the Director were responsive. Although the Director did not agree or
disagree with the recommendation, the actions described in his response meet the intent
of our recommendation. No further comments are required.

      3. Perform a review of task orders to determine if contractors are
performing inherently governmental duties and modify or terminate task orders not
complying with Federal Acquisition Regulation subpart 7.5 requirements.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated,
with one notable exception, the sample population of task orders that the DoD OIG
reviewed contained language that was interpreted by the audit team as requiring the
contractor to engage in inherently governmental functions. According to the Director, the
exception was a requirement to draft responses to congressional correspondence. The
Director further stated the questionable language contained in the other task orders
erroneously created this misinterpretation. Finally, the Director stated USSOCOM
officials completed actions to review the GBPS task orders and remove language that
indicates the contractor is to perform inherently governmental or personal services.
USSOCOM plans to initiate and complete a review of all GBPS task orders to ensure
current and future task orders are compliant with FAR Subpart 7.5, “Inherently
Governmental Functions,” and, if appropriate, take any action warranted. The estimated
completion date is April 2013.




                                             12
Our Response
Comments from the Director were responsive. Although the Director did not agree or
disagree with the recommendation, the actions described in his response meet the intent
of our recommendation. No further comments are required.
       4. Perform a review of task orders to determine if contractors are
performing personal services and modify or terminate task orders not complying
with Federal Acquisition Regulation subpart 37.1 requirements.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated
that, except as expressly stated as a personal service entered into using statutory authority
granted to USSOCOM, GBPS task orders are a means of acquiring by contract the
services of contractors to either increase USSOCOM’s capability or capacity.
Additionally, the Director stated that all nonpersonal service task orders contain a PWS
or Statement of Work and the contractor’s employees are, either by the task order’s terms
or the manner of its administration, not subject to the supervision or control prevailing in
relationships between the Government and its employees. Therefore, by definition, the
task orders are nonpersonal in nature as defined at FAR subpart 37.101. Additionally,
GBPS contract clause H.6 language states, “[t]he parties recognize and agree that no
employer-employee relationships exist or will exist under the contract between the
Government and Contractor and/or between the Government and the Contractor's
employees.”

Further, the Director stated should the contracting officer become aware of any situation
that might have the appearance of (or the contractor is actually conducting) inherently
governmental or personal services activities, corrective action would be taken
immediately. Corrective actions range from a written warning to revocation of the
COR’s appointment to task order termination as necessitated by the severity of the
action(s).

Our Response
Comments from the Director were responsive. USSOCOM plans to initiate and conduct
a review of the GBPS task orders in accordance with the referenced FAR requirements,
to include subpart 37.1 for personal services job elements and subpart 7.5 for inherently
governmental duties. Therefore, no further comments are required.

       5. Initiate a review of contracting officers’ adherence to Federal Acquisition
Regulation requirements and if appropriate, take any actions warranted by the
review. Specifically, review Federal Acquisition Regulation procedures contained
in:
        a. subparts 2.1 and 16.5 for task orders to contain clearly defined
performance work statements,


                                             13
          b. subpart 37.6 for measureable outcomes,
          c. subpart 37.1 for personal services job elements,
          d. subpart 7.5 for inherently governmental duties,
         e. part 15 for determination of fair and reasonable prices for
modifications over $700,000 (Finding B), and
          f. subpart 32.9, for payments to be made based on receipt of proper
invoice and satisfactory contract performance (Finding C).

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with Recommendations A.5.a through A.5.f. The
Director stated USSOCOM will initiate and complete a review of all GBPS task orders to
ensure current and future task orders are compliant with the referenced
FAR requirements. The estimated completion date is April 2013.

Our Response
Comments from the Director were responsive. Although the Director did not agree or
disagree with the recommendation, the actions described in his response meet the intent
of our recommendation. No further comments are required.




                                           14
Finding B. Modifications Awarded Without
Price Reasonableness Determinations
Contracting officers awarded 20 modifications, under 10 task orders, totaling
approximately $38.8 million, without a determination of fair and reasonable price. The
20 modifications, each valued at more than $700,000, increased the overall cost of the
10 task orders from approximately $35.6 million to $74.4 million. A contracting officer
stated this occurred because time constraints prevented the staff from documenting their
reviews of fair and reasonable price analyses. Furthermore, USSOCOM officials did not
take action to address recommendations made in DoD OIG Report No. D-2009-102 to
improve controls over its contracting processes. The recommendations requested
USSOCOM officials to implement FAR procedures for performing and documenting fair
and reasonable price determinations.

As a result, USSOCOM may not have received fair and reasonable prices for contracted
services. Without proper price reasonableness analyses, USSOCOM could not determine
if the best value was received for GBPS contracted services. For example, a task order
containing services, valued at approximately $0.9 million, for a 10-month period of
performance was modified to add an additional 50 days of services at the cost of
$1.9 million without proper price reasonableness analyses.

Price Reasonableness Guidance
According to FAR Subpart 15.4, “Contract Pricing,” to determine if proposed
modification prices are fair and reasonable the contracting officer must obtain certified
cost or pricing data and a Certificate of Current Cost or Pricing Data from the contractor
for modifications over $700,000. In addition, the contracting officer must include a
Certificate of Current Cost or Pricing Data in the contract file and document the extent of
reliability placed on the certified cost or pricing data submitted.

Contracting Officers Did Not Determine Fair and
Reasonable Price for Modifications
Contracting officers issued 20 modifications, under 10 task orders, totaling approximately
$38.8 million, without a determination of fair and reasonable price in accordance with
FAR subpart 15.4. We requested contracting officers provide price reasonableness
analysis and determination documentation for the 20 modifications over $700,000 in our
sample. Contracting officers were unable to provide the documentation. Therefore,
USSOCOM could not determine if the best value was received for the 20 modifications.
Table 2 (page 16) lists the modifications over $700,000, the original price of the
task order, and the amount of the modification.




                                            15
The modification amounts shown in Table 2 represent increases to the original value of
the task orders. For example, modifications issued for contract H92222-10-D-0019,
task order 9 significantly exceeded the price of the original value of the task order. The
20 modifications increased the overall value of the 10 task orders by approximately
109 percent from $35.6 million to $74.4 million.

               Table 2. Number and Value of Modifications Over $700,000
                                   Number of            Value of Task        Value of         Total Value
                        Task
 Contract Number                  Modifications            Order           Modifications       of Task
                        Order
                                  Over $700,000           (millions)        (millions)          Orders
 H92222-10-D-0016          1              1                 $7.9                $0.7             $8.6
                           7              1                  5.8                 1.1               6.9
 H92222-10-D-0017
                          11              1                  0.1                 1.1               1.2
                           3              4                  4.9                 8.3             13.2
                           4              3                  3.0                 7.3             10.3
                          12              1                  1.6                 2.6               4.2
 H92222-10-D-0018
                          25              1                  5.0                 3.3               8.3
                          26              1                  6.6                 0.9               7.5
                          34              2                  0.5                 1.7               2.3
 H92222-10-D-0019          9              5                  0.2                11.7             11.9
   Total                                20                 $35.6              $38.8             $74.4
Note: Because of rounding, columns may not sum. The value of contracts H92222-10-D-0017,
task order 7 and H92222-10-D-0018, task orders 3 and 4 includes the cost for exercised option year one.

Time Constraints Should Not Prevent Documenting
Price Reasonableness Determinations
A contracting officer stated that time constraints prevented the staff from documenting
their reviews of the fair and reasonableness price analyses for task orders over $700,000.
We requested USSOCOM contracting officers provide documentation and evidence of
price reasonableness analyses for the 20 modifications reviewed. However, contracting
officers stated that formal documentation of cost or pricing data analyses was not
available for the modifications. A contracting officer also stated that the staff reviewed
independent Government cost estimates provided by the requesting activity and other
documents but they did not document the analysis. Contracting officers should not issue
modifications without conducting price reasonableness determinations to ensure fair and
reasonable prices are received for contracted services. Contracting officers should also
retain, as part of the official contract file, supporting documentation used to make price
reasonableness determinations. In addition, USSOCOM officials should establish
metrics to assess whether contracting officers are performing price reasonableness
determinations for the GBPS contract.




                                                   16
Prior Problems Determining Fair and Reasonable Prices
Were Not Corrected
USSOCOM officials did not take appropriate actions to address prior recommendations
to improve and correct controls over their
contracting processes, especially fair and           USSOCOM officials did not take
reasonable price determinations. Although             appropriate actions to address
recommended in a prior audit report,                    prior recommendations to
USSOCOM officials did not adequately                improve and correct controls over
implement FAR procedures to perform and                their contracting processes.
document fair and reasonable price
determinations. The DoD OIG issued
Report No. D-2009-102, “Price Reasonableness Determinations for Contracts Awarded
by the U.S. Special Operations Command,” September 18, 2009, stating that USSOCOM
contracting officers did not perform or document price reasonableness determinations in
accordance with the FAR. Further, the report stated USSOCOM internal controls were
not adequate to ensure that contracting officials approved required contracting
documentation or that the contract files contained the supporting documentation of the
price reasonableness decisions. The report recommended the Commander, USSOCOM,
improve contracting internal controls by emphasizing to contracting personnel that they
comply with the FAR when performing and documenting price reasonableness
determinations, as well as require periodic reviews of contract files to determine whether
they contain the required documentation and the necessary signatures.

Based on recommendations in DoD OIG Report No. D-2009-102, USSOCOM officials
stated they took actions to resolve the issues. Specifically, they:
      provided formal training on multiple pricing topics,
      established metrics to provide an aggregate assessment of each office’s
       compliance with the FAR regarding documenting fair and reasonable price
       determinations,
      updated the SOFARS to include independent contract file reviews, and
      conducted an internal Directorate of Procurement Management Review (PMR).
We requested documentation to support these actions. USSOCOM officials responded
and stated they provided training in FY 2010 for fair and reasonable price determinations,
SOFARS has language requiring independent contract file reviews, and USSOCOM
performs PMRs. However, USSOCOM officials stated no metrics have been established
to assess compliance with FAR requirements to perform fair and reasonable price
determinations. Further, USSOCOM provided a copy of the FY 2010 PMR. However,
according to the PMR results, contract modifications are still an area of concern for
contract administration. Therefore, USSOCOM should establish an annual PMR of
GBPS contract procedures to assess contract records and ensure task order files contain
supporting documentation as required by FAR part 15.



                                            17
USSOCOM May Not Be Receiving the Best Value
USSOCOM may not have received fair and reasonable prices for required services.
Without proper price reasonableness analyses, contracting officers cannot ensure the
GBPS contracted services provided the best value. For example, a contracting officer
modified a task order on September 20, 2010, to add a 10-month period of performance
study, valued at approximately $0.9 million. However, a contracting officer issued a
modification on September 30, 2010, adding 50 days to the period of performance at a
cost of approximately $1.9 million without a proper price reasonableness analyses. Until
FAR requirements for fair and reasonable price analyses are implemented, USSOCOM
officials could not ensure they obtained the best value on negotiated contracts.
Therefore, USSOCOM officials should implement controls to verify contracting
personnel adhere to FAR subpart 15.4 and perform price analysis for modifications over
$700,000.

Conclusion
Contracting officers did not adhere to FAR subpart 15.4 requirements for performing
determinations of fair and reasonable prices for modifications over $700,000.
In addition, the Commander, USSOCOM, did not take appropriate action to address
issues or recommendations regarding price reasonableness determinations identified in
DoD OIG Report No. D-2009-102. By taking actions to correct previously identified
issues and implementing recommendations, USSOCOM officials may mitigate the risk of
not receiving the best value for GBPS contracted services.

Management Comments on the Finding and
Our Response
The Director, Special Operations Research, Development, and Acquisition Center,
provided comments on Finding B. See Appendix D for the Director’s comments on the
finding and our response.

Recommendations, Management Comments, and
Our Response
B. We recommend that the Director, Special Operations Research, Development,
and Acquisition Center:

       1. Implement controls to verify contracting personnel adhere to Federal
Acquisition Regulation Subpart 15.4 and perform price analysis for modifications
over $700,000.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director agreed with the recommendation and stated USSOCOM officials completed
actions to address this recommendation. The Director stated that contracting officers are
adhering to FAR subpart 15.4 requirements and performing price analysis for task order
modifications, including initial task order award.

                                           18
Our Response
Comments from the Director were responsive. No further comments are required.

       2. Retain, as part of contract file, supporting documentation used to make
price reasonableness determinations.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated
USSOCOM officials will include documentation in the task order file supporting the
pricing determinations for modifications as the documentation is generated.
Additionally, the Director stated actions are ongoing until all task orders expire.

Our Response
Comments from the Director were responsive. Although the Director did not agree or
disagree with the recommendation, the actions described in his response meet the intent
of our recommendation. No further comments are required.

       3. Establish metrics to assess whether contracting officers are performing
price reasonableness determinations for the Global Battlestaff and Program
Support contract.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated that
metrics are not necessary to determine whether contracting officers are performing price
reasonableness. Further, the Director stated USSOCOM officials will generate
documentation (reviewed by the supervisory contracting officer) to ensure compliance
and retain with the documentation generated to award the modification. Additionally, the
Director stated actions will be ongoing until all task orders expire.

Our Response
Comments from the Director were nonresponsive. The Director disagreed that metrics
are needed to assess whether contracting officers are performing price reasonableness
determinations. We believe USSOCOM needs to establish metrics to periodically
monitor and assess compliance with price reasonableness requirements. Therefore, we
request the Director, Special Operations Research, Development, and Acquisition Center,
provide additional comments by May 24, 2013.

       4. Require an annual Procurement Management Review of the Global
Battlestaff and Program Support contract procedures and records.




                                           19
Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated
USSOCOM officials will conduct additional reviews in response to other
recommendations in this report. The Director further stated USSOCOM officials
implemented new processes and are conducting internal and peer reviews. Also, the
Director stated USSOCOM officials will conduct PMRs in accordance with established
schedules. Finally, the Director stated the mission and limited resources do not allow
USSOCOM to support annual PMRs on the GBPS contracts.

Our Response
Comments from the Director were partially responsive. We acknowledge the
Command’s efforts for conducting additional reviews, implementing new processes, and
conducting internal peer reviews and PMRs in accordance with established schedules.
During our audit, USSOCOM officials stated they conduct PMRs every 3 years.
However, USSOCOM officials do not conduct PMRs for each contracting office.
For example, in 2011, USSOCOM officials performed five PMRs; none of which were
conducted for contracting activities in USSOCOM headquarters.

Although the Director stated that USSOCOM officials will conduct additional reviews
and provided examples of the review types, the Director did not specifically state the
frequency of each review or a timeline for completion. Therefore, we request the
Director, Special Operations Research, Development, and Acquisition Center, provide
additional comments by May 24, 2013.




                                           20
Finding C. Improvements Needed in GBPS
Contract Payment Certification Process
Contracting officers did not validate that contractors were entitled to approximately
$50.9 million paid on GBPS task orders between September 1, 2011, and
March 31, 2012. Specifically, contracting officers did not verify that contractor services
were performed or that services received from the contractor met contract requirements
before certifying invoices for payment. This occurred because contracting officers
approved “scheduled interval” payments on an exception basis. Specifically, contracting
officers certified “invoice-2-in-1”4 (invoice) payments without validating services were
received and conformed to contract requirements. In addition, the contracting office
certified invoices for payment in WAWF after DCMA officials relinquished
administrative contracting officer duties in August 2011. As a result, contracting officers
could not ensure that the Government received services for which it paid.

Use of Electronic Contract Payments
Public Law 106-398, “National Defense Authorization, Fiscal Year 2001,”
October 30, 2000, requires claims for contract payments to be submitted and processed in
electronic format. Under Defense Federal Acquisition Regulation Supplement 232.70,
contractors are required to submit payment requests and receiving reports in electronic
form through WAWF. According to the GBPS contract, it is mandatory for all
contractors to submit invoices and receiving reports through WAWF before payment.

WAWF is an interactive Web-based application that allows contractors to electronically
submit invoices and receiving reports for Government inspection, acceptance, and
electronic payment. The contractor submits an invoice in WAWF to a designated
Government representative for acceptance. A Government representative verifies
contractor performance, validates the accuracy of invoice amounts, and submits the
invoice for payment. The Government representative then certifies that goods and
services received from the contractor met contract requirements and the invoice is valid
for payment. For GBPS task orders,
       the contractor submits an invoice document in WAWF,
       WAWF creates a single invoice/receiving report that is routed from the contractor
        to contracting officers,
       contracting officers certify acceptance of the invoice, and
       the invoice is routed to the payment office.




4
 The “invoice 2-in-1” documents are used when a contract for services requires invoice acceptance before
submission for payment. The contractor creates an “Invoice 2-in-1” document and submits the invoice for
payment in the WAWF system. A Government representative certifies acceptance of the contractor
services on the “invoice 2-in-1” document.

                                                   21
The flowchart below illustrates the general WAWF process.
                          Figure. WAWF Invoice Payment Process




Source: Washington Headquarters Services Presentation.

Contracting Officers Paid Contractors Without
Validating Payments
Contracting officers did not validate that contractors were entitled to approximately
$50.9 million paid on GBPS task orders between September 1, 2011, and
March 31, 2012. FAR Subpart 32.9, “Payment Documentation and Process,” states that a
                                        payment will be made based on receipt of proper
    Contracting officers did not        invoice and satisfactory contract performance.
   validate that contractors were       According to WAWF guidance, a person with
     entitled to approximately          inspector status inspects the quality of contracted
    $50.9 million paid on GBPS          goods or services and a person with acceptor status
             task orders.               accepts  goods or services on behalf of the
                                        Government. During the invoice certification
process, the contracting officer certified that an inspection, “has been made by me or
under my supervision and they conform to contract.” However, contracting officers did
not have documentation to verify that 394 of 403 invoices submitted by GBPS prime
contractors between September 1, 2011, and March 31, 2012, met contract requirements.
Specifically, they did not validate whether contracted services were received or
conformed to contract requirements before certifying invoices for payment.
Contracting Officers Improperly Approved Invoices
for Payment
Contracting officers did not properly approve invoices for payment. This occurred
because contracting officers approved “scheduled interval” payments on an “exception
basis.” Specifically, contracting officers approved invoice payments unless a COR
notified the contracting officer that services had not been accepted and no payment
should be made to the contractor. DoD Regulation 7000.14 R, “DoD Financial
Management Regulation,” volume 10, chapter 7 states contract payments must be based
upon acceptance of goods or services as authenticated by the signature of the
Government official. In addition, Under Secretary of Defense for Acquisition,
Technology, and Logistics memorandum dated March 29, 2010, required the CORs to
inspect and accept services during contract performance and review and validate that
contractor payment requests are commensurate with performance. However, the
contracting officer certified invoices for GBPS task orders in support of services
performed in the United States and overseas without contacting CORs to determine if the
invoices were valid for payment. With the complexity of the GBPS task orders and the
number of contractors performing services at multiple locations, it is imperative that
USSOCOM officials validate the accuracy of contractor invoices before certifying
payment. USSOCOM officials should implement procedures to verify contractor
performance and validate the accuracy of invoice amounts before certifying invoices for
payment. Those procedures must be performed by a Government representative with
knowledge that services conform to applicable task order quality and quantity
requirements.

DCMA Relinquished the Administrative Contracting
Officer’s Responsibilities
FAR Subpart 42.3, “Contract Administration Office Functions,” states that the CAO is
responsible for contract administration functions, such as review, approve, or disapprove
the contractor’s requests for payments under the performance-based payments clauses.
The contracting office certified invoices for payment in WAWF after DCMA officials
relinquished contract administration duties in August 2011. Specifically, USSOCOM
officials delegated and DCMA officials accepted CAO responsibilities for the GBPS
contract in April 2010. As the CAO, DCMA officials performed formal acceptance of
the GBPS contract services and certified contractors’ invoices for payment in WAWF.
On August 2, 2011, DCMA issued a memorandum relinquishing the GBPS CAO
responsibilities. Among other reasons, the memorandum stated that the work was not
within the scope of DCMA’s “core mission.” Consequently, the contracting office
certified GBPS invoices in WAWF. A contracting officer stated that they were certifying
the invoices in WAWF pending CORs training. The contracting officer stated that CORs
were not trained to certify contractor invoices in WAWF for the GBPS contract.
Consequently, contracting officers need to train CORs to certify contractor invoices in
WAWF.



                                           23
Action Needed to Improve Payment
Certification Process
USSOCOM contracting officers did not ensure contract services were received and
conformed to contract requirements. Until a proper GBPS payment certification process
is implemented, USSOCOM cannot validate that the Government received services for
which it paid. By establishing a proper payment certification process, USSOCOM
officials can assure that services received conformed to contract requirements and
contractors are entitled to payments.

Conclusion
Contracting officers did not adhere to FAR subpart 32.9, which requires payments to be
made based on receipt of proper invoice and satisfactory contract performance.
Specifically, contracting officers did not validate whether contracted services were
received or conformed to contract requirements before certifying invoices for payment.
Implementing an invoice certification payment process for the GBPS contract will allow
USSOCOM to verify that contracted services were received before making payments to
contractors.

Management Comments on the Finding and
Our Response
The Director, Special Operations Research, Development, and Acquisition Center,
provided comments on Finding C. See Appendix D for the Director’s comments on the
finding and our response.

Recommendations, Management Comments, and
Our Response
C. We recommend that the Director, Special Operations Research, Development,
and Acquisition Center:

        1. Implement procedures for the contracting officer or the contracting
officer representatives to verify contractor performance and validate contractor
payment requests before certifying invoices for payment.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated
contracting officers are conducting an aggressive program to train CORs on the proper
use of WAWF to process invoices and ensure compliance with their fiduciary
responsibility to ensure payment is made only for services rendered and to which the
contractor is entitled. Estimated completion date is March 15, 2013.

Our Response
Comments from the Director were partially responsive. We believe the ongoing
initiatives to train CORs on the proper use of WAWF are partially responsive to the

                                           24
recommendation. However, the Director did not address the procedures required in the
recommendation. Until the CORs are fully trained to certify invoices in WAWF,
contracting officers should ensure payments are based on satisfactory contract
performance before certifying payments in WAWF. Therefore, we request the Director,
Special Operations Research, Development, and Acquisition Center, provide additional
comments by May 24, 2013.
        2. Direct contracting officers to train the Global Battlestaff and Program
Support contracting officer’s representatives on the Wide Area Work Flow invoice
certification process.

Director, Special Operations Research, Development, and
Acquisition Center Comments
The Director did not agree or disagree with the recommendation. The Director stated
contracting officers are conducting an aggressive program to train CORs on the proper
use of WAWF to process invoices and ensure compliance with their fiduciary
responsibility to ensure payment is made only for services rendered and to which the
contractor is entitled. Estimated completion date is March 15, 2013.

Our Response
Comments from the Director were responsive. Although the Director did not agree or
disagree with the recommendation, the actions described in his response meet the intent
of our recommendation. No further comments are required.




                                           25
Appendix A. Scope and Methodology
We conducted this performance audit from October 2011 through September 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
We conducted the audit at the USSOCOM headquarters (MacDill Air Force Base) in
Tampa, Florida. We reviewed policies and procedures related to the administration of
task orders awarded under the GBPS contract. Specifically, we obtained and reviewed
applicable sections of the FAR, DoD policies and regulations, and the SOFARS. In
addition, we:
       obtained and reviewed the GBPS contract, prime vendor contracts, task orders
        and modifications from the Electronic Document Access (EDA) and the
        USSOCOM GBPS Contract Internet Portal;
       identified modifications that increased the cost of task orders;
       conducted an analysis of task orders with cost increases and the corresponding
        modifications;
       identified roles and responsibilities for GBPS contact administration, to include
        the procuring contracting officer, the CORs, contracting officer technical
        representative, and USSOCOM officials providing oversight of task orders; and
       conducted a review on USSOCOM procedures for paying invoices in WAWF.
We selected a nonstatistical sample from the 73 GBPS contract task orders. Specifically,
we selected 28 task orders with modifications that increased the cost of the task orders.
We selected the sample based on the risk associated with high dollar values and the high
volume of modifications. Table A-1 contains a list of the 28 task orders with
modifications that increased the cost of the task orders.
             Table A-1. Value of Sampled of Task Orders and Modifications
                             Total
                           Number of          Original     Modification       Current
        Contract
                             Task              Value        Amount             Value
                            Orders
 H92222-10-D-0016               4            $40,916,834    $1,839,808       $42,756,642
 H92222-10-D-0017               4             20,493,483     3,710,918        24,204,401
 H92222-10-D-0018              15             56,055,877    28,310,883        84,366,760
 H92222-10-D-0019               5              6,347,009    13,837,490        20,184,499
     Total                     28           $123,813,203   $47,699,098      $171,512,302

Note: Because of rounding, columns may not sum.


                                                  26
During fieldwork, we reviewed selected aspects of the GBPS task order award and
administration processes. Specifically, we obtained and reviewed documentation to
determine whether USSOCOM personnel maintained documentation to support task
order award decisions, competed the awarded task orders among the four prime
contractors, conducted a personal services determination, and an inherently governmental
review. We also requested documentation to determine whether USSOCOM personnel
conducted fair and reasonable price determinations for task order modifications.
In addition, we selected a second nonstatistical sample for review that consisted of
20 task order modifications with a cost greater than $700,000. We selected this sample to
determine whether USSOCOM conducted fair and reasonable price determinations for
modifications valued over $700,000 as required by FAR 15.4, “Contract Pricing.”
Table A-2 contains a list of the 20 task order modifications with a cost greater than
$700,000.
                  Table A-2. Modifications Greater Than $700,000
                                              Modification     Value of
             Contract         Task Order
                                                Number       Modifications
        H92222-10-D-0016               1                 4              $744,938
                                       7                 6              1,103,361
        H92222-10-D-0017
                                      11                 1              1,094,028
                                                         6              1,193,537
                                                         8              3,494,429
                                       3
                                                        10              1,699,513
                                                        14              1,903,169
                                                         3              3,951,056
                                       4                 4              2,592,493
        H92222-10-D-0018
                                                        11                769,005
                                      12                 2              2,628,162
                                      25                 6              3,226,643
                                      26                 9                927,687
                                                         3                738,537
                                      34
                                                         4                992,743
                                                        15              1,482,053
                                                        17              2,753,740
        H92222-10-D-0019               9                18              1,876,201
                                                        20              3,616,137
                                                        21              1,999,956
           Total                                                      $38,787,387


We conducted interviews with personnel from the USSOCOM Special Operations
Research, Development, and Acquisition Center, Directorate of Procurement and the
Center for Force Structure, Requirements, Resources, and Strategic Assessment
Directorate, to get an understanding of their roles, responsibilities, and procedures, and
compared them to the applicable guidance listed above. We also gained access to the
                                             27
USSOCOM GBPS portal to obtain and review the following documents and forms that
were used to support the GBPS contract task orders and modifications in our sample:
      Task order proposals from each contractor,
      Independent Government Cost Analyses,
      Business Clearance Memorandums,
      Task Order and Modification Justifications,
      Task Order and Modification Approvals, and
      Task Order and Modification Performance of Work Statements.
To review the GBPS contract payment certification process, we requested and reviewed
all 403 GBPS contractor invoice-2-in-1 documents submitted for payment from
September 1, 2011, through March 31, 2012. We reviewed the invoice-2-in-1 documents
to determine whether WAWF was used to certify and document contracting officers’
inspection and acceptance of contractor services.

Use of Computer-Processed Data
We relied on computer-processed data from the EDA website, the USSOCOM GBPS
Contract Internet Portal, and WAWF. EDA is a Web-based system that provides secure
online access, storage, and retrieval of contracts and contract modifications to authorized
users throughout the DoD. USSOCOM GBPS Contract Internet Portal is the official
repository for the GBPS contract file administered by USSOCOM Special Operations
Research, Development, and Acquisition Center. We obtained GBPS contract
documentation from EDA and the USSOCOM GBPS Contract Internet Portal. We
reviewed the documentation to determine whether USSOCOM contracting officers
maintained adequate support for GBPS task order decisions. We compared the
documents retrieved from EDA to copies obtained from USSOCOM GBPS Contract
Internet Portal and verified the contract documentation was accurate and complete to
answer our audit objective. WAWF is an interactive Web-based application that allows
contractors to electronically submit invoices and receiving reports for Government
inspection, acceptance, and electronic payment. To assess the reliability of WAWF
invoice data, we compared the data to task order scheduled interval payments and
interviewed agency officials knowledgeable about the data. We determined that data
from EDA, the USSOCOM GBPS Contract Internet Portal, and WAWF were sufficiently
reliable to address our audit objectives.

Use of Technical Assistance
During the audit, we requested and received technical assistance from the DoD OIG
Quantitative Methods Division (QMD). We coordinated with QMD to determine the
type of sampling methodology for the audit. QMD personnel recommended we use a
nonstatistical sample for our audit. We selected a sample of 28 task orders that contained




                                            28
modifications that increased the cost of the task orders. Further, we selected a second
nonstatistical sample for review. This nonstatistical sample consisted of 20 task order
modifications with a cost greater than $700,000.

Prior Coverage
During the last 5 years, the DoD OIG and the Department of the Army issued eight
reports related to contract administration. Unrestricted DoD OIG reports can be accessed
at http://www.dodig.mil/. Unrestricted Army reports can be accessed over the Internet at
http://www.aaa.army.mil/.

DoD IG
DoD IG Report No. D-2011-078, “Contracts Supporting Base Operations in Kuwait Need
Stronger Management and Administration,” June 30, 2011

DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

DoD IG Report No. D-2010-054, “Advisory and Assistance Services Contracts in
Support of the Air Force Combat Search and Rescue Helicopter,” May 4, 2010

DoD IG Report No. D-2009-102, “Price Reasonableness Determinations for Contracts
Awarded by the U.S. Special Operations Command,” September 18, 2009

DoD IG Report No. D-2009-083, “Logistics Support Contracting for the United States
Special Operations Command,” May 28, 2009

Army
Army Audit Agency Report No. A-2011-0213-FFP, “Contract Incentives-U.S. Army
Pacific,” September 29, 2011

Army Audit Agency Report No. A-2011-0203-IEU, “Visibility and Oversight of Service
Contracts in Europe-U.S. Army Installation Management Command, Europe Region,”
September 14, 2011

Army Audit Agency Report No. A-2009-0132-ALL, “Contracting Operations-U.S. Army
Contracting Command Southwest Asia-Kuwait,” September 29, 2009




                                            29
Appendix B. Potential Inherently
Governmental Language
The table below contains task orders with inherently governmental language that may
require contractors to perform inherently governmental duties.

                    Task                                                          Reference
    Contract                      Inherently Governmental language
                    Order                                                          to FAR
                             The contractor’s Financial/Budget Analyst shall
                                   review, analyze, and develop pertinent
                             financial/budget guidance/procedures and assist
                               Joint Military Information Support Command
H92222-10-D-0017      5
                                  (JMISC) leadership and the Government
                             Resource Manager in all phases of the Planning,
                             Programming, Budgeting, and Execution System         7.503(c)(6)
                                                  (PPBES).
                              Conduct weekly briefings, information papers,
                                 scheduled and unscheduled intelligence or
                              operations reports, recurring reports, messages,
                                briefings, issue papers, terrorism threat level
                      3      assessments, group or individual profiles, threat
                                warning, link analysis, special assessments,
                              forecasts, responses to inquiries, congressional
                                testimonies, briefing books, trip books, and      7.503(c)(20)
                                Commander USSOCOM discussion papers.
H92222-10-D-0018                 They will be responsible for research and
                             preparation of a variety of written products such
                               as scheduled and unscheduled intelligence or
                              operations reports, recurring reports, messages,
                               briefings, information/issue papers, terrorism
                      4
                              threat level assessments, group profiles, threat
                                warning, link analysis, special assessments,
                              forecasts, responses to inquiries, congressional
                                testimonies, briefing books, trip books, and      7.503(c)(20)
                                Commander USSOCOM discussion papers.




                                             30
                   Task                                                           Reference
    Contract                     Inherently Governmental language
                   Order                                                           to FAR
                              Contract Specialists will negotiate, administer,
                             extend, and prepare termination documents and
                             renegotiate contracts; formulate and coordinate
                              procurement proposals; direct and coordinate
                                activities of workers engaged in evaluating
                                  proposals; evaluate or monitor contract
                                  performance to determine necessity for
                                amendments or extensions of contracts and
                     7     compliance to contractual obligations; approve or
                                reject requests for deviations from contract
                             specifications and delivery schedules; arbitrate
                           claims or complaints occurring in performance of
                               contracts; analyze price proposals, financial
                                    reports, and other data to determine
                                reasonableness of prices; and may serve as
                           liaison officer to ensure fulfillment of obligations
                                                by contractors                    7.503(c)(12)
H92222-10-D-0018                 The contractor will support Congressional
                    10          Requests for Information (RFIs) regarding         7.503(c)(20)
                                   components of wounded warrior care.
                               The contractor will prepare draft answers to
                    11       Congressional or higher headquarters Requests        7.503(c)(20)
                                           for Information (RFIs).
                               [Marine Special Operations Command]G-9
                                requires contractor support to augment the
                           Recruiting, Screening, Assessment, and Selection
                           (RSAS) efforts until the MARSOC Total Force is
                            realized. Within this requirement, there is both a
                    26      full time and an episodic work force required in
                             an effort to Recruit, Screen, Assess, and Select
                                 Qualified Marine Applicants (QMAs) for
                                 assignment to [Marine Special Operations
                               School] and the individual Training Course         7.503(c)(9)
                               (ITC) and follow on duty within MARSOC.
                              The Contractor shall function as [Operational
                                  Test and Evaluation] Officer, providing
                     6
                                leadership to the test team for assigned test     7.503(c)(7)
                                                  programs.
                             In support of this performance requirement, the
H92222-10-D-0019                Contractor shall provide acquisition source
                                selection and vendor contract and outcome
                                management support that encompasses full
                     7
                                spectrum of strategy development, contract
                                planning, and documentation development
                              execution and monitoring, including contract
                                           post award monitoring.                 7.503(c)(12)




                                           31
    Appendix C. Identified Task Order Issues
    The table below contains task orders with unclear PWS requirements, outcomes that
    could not always be measured, modifications that added services to the contract, elements
    of a personal service contracts, and inherently governmental language.

                                                     Contain
                                                    Outcomes        Modifications
                        Task         Unclear                                          Personal     Inherently
        Contract                                     That Are         Added
                        Order      Requirements                                       Service2    Governmental
                                                       Not           Services1
                                                    Measurable
                          01             √                √
                          02             √                √                              √
    H92222-10-D-0016
                          03             √                √                              √
                          04             √
                          05             √                √                              √              √
                          07             √                √              √√√             √
    H92222-10-D-0017
                          09             √                √               √√             √
                          11             √                √                              √
                          02             √                √               √              √
                          03             √                √              √√√√            √              √
                          04             √                √              √√√             √              √
                          07             √                √               √√             √              √
                          10             √                √               √              √              √
                          11             √                √                              √              √
                          12             √                                √√             √
    H92222-10-D-0018      13             √                √              √√√             √
                          14                              √                              √
                          19             √                √               √              √
                          22             √                √               √√             √
                          25             √                √               √              √
                          26             √                √                              √              √
                          28             √                √                              √
                          34             √                               √√√√            √
                          06             √                √                                             √
                          07             √                √               √              √              √
                          08             √                √               √              √
    H92222-10-D-0019
                                                                       √√√√√√
                          09             √                √
                                                                       √√√√√√
                          11                              √                              √
                                                              3
              Total                     26               25               43             24              9
1
  Each check mark represents a modification to the task order that added services not identified in the original
task order PWS.
2
  Each task order identified contained at least four of six elements of a personal service contract.
3
  As stated in Finding A, there are 24 task orders that contain outcomes that are not measurable while there is
one task order without any identified outcomes.




                                                        32
Appendix D. Management Comments on the
Draft Report and Our Response
The Director, Special Operations Research, Development, and Acquisition Center,
provided management comments on the transmittal memorandum, Results in Brief,
Introduction, Review of Internal Controls, Finding A, Finding B, and Finding C. For the
full text of management comments see page 41.

Management Comments on the Introduction and
Review of Internal Controls
The Director disagreed with statements made on page 2 (Introduction section) of the draft
report. Specifically, the Director stated the section entitled Service and IDIQ Contracts,
as currently written, appears to indicate that all service requirements must be firm-fixed
price performance based. This view is inconsistent with the regulation and practice
within the Federal Government. Additionally, the Director disagreed with statements in
the Review of Internal Controls section. The Director recommended changing the second
sentence to the following: “Consistent with USSOCOM’s FY13 [Annual Statement of
Assurance], we identified an internal control weakness.” In addition, the Director
recommended deleting the third sentence in its entirety.

Our Response
As stated in the report on page 1, “[t]he GBPS IDIQ contract allows for five task order
types: firm-fixed price, firm-fixed price level of effort, fixed price incentive fee, cost plus
fixed fee, and cost plus incentive fee.” Further, we refer to FAR part 37, which includes
FAR 37.102. FAR 37.102 states when acquiring services, including those acquired under
supply contracts or orders, agencies must use the following order of precedence:
      a firm-fixed price performance-based contract or task order,
      a performance-based contract or task order that is not firm-fixed price, and
      a contract or task order that is not performance based. 

Management Comments on Finding A and Our
Responses
The Director stated USSOCOM did not award any task orders with unclear requirements.
Instead, the task orders’ PWS or SOW was clear for the type of task order issued and, as
authorized by FAR 37.102(a)(2)(iii), a few of the task orders were not performance-
based. Further, for the performance based task orders, a PWS was used. For this type of
task order, the contractor is obligated to perform outcomes. In addition, a Standard
Delivery Summary is incorporated into each of the GBPS task orders to establish a set of
key requirements/deliverables with objectives, metrics, and method of evaluating
contractor performance.

As a general comment, the Director agreed that for performance-based acquisitions,
USSOCOM correctly used FAR subparts 2.1 and 16.5 and the “Guidebook for
Performance-Based Service Acquisition (PBSA) in the Department of Defense.” In

                                              33
addition, the Director stated, “nonperformance based task orders statement of work
describes the scope of work in general terms and obligates the contractor to devote a
specified level of effort for a stated time period.” Therefore, the few nonperformance
based task orders reviewed should have been evaluated against these regulatory
references.

Management Comments on Unclear Requirement Examples in
the Draft Report
The Director, Special Operations Research, Development, and Acquisition Center,
disagreed that contract H92222-10-D-0018 task order 11 and contract
H92222-10-D-0019, task order 07 contained unclear requirements. The Director stated
that contract H92222-10-D-0018, task order 11, “PWS Paragraph 4.0 provides the details
of the deliverables. For example, 4.1.1 ‘…2-4 major presentations per month.’ 4.1.2
‘…update portfolio information monthly…’ 4.1.3 ‘…review…on an annual basis.’ ” In
addition, the Director agreed (with caveats) that,

       [t]his support is dependent upon many variables outside the control of the government (at the time
       of task order award) and the GBPS contractor; therefore, it is virtually impossible to identify
       specifically when this support will be required. For example, transition of a program from the
       Technology Development Phase to the Engineering & Mfg Development Phase will impact when
       this specific support is required. If the contractor providing the supplies is behind on production
       or fails a test, the schedule is impacted and directly affects when the GBPS support will be
       required. The government knows this support will be required during the life of the task order, but
       cannot predict nor be tied to specific schedule or dates.

Further, for contract H92222-10-D-0019, task order 7, the Director stated,

       [c]ost factors and CERs are available in a “pre-boxed” format, they can be created from historical
       data, they can be duplicated from other programs, and/or they can be developed from scratch.
       Selecting which of the above approaches to use (one or a combo) is dependent upon the program
       or item for which the cost estimate is being prepared. Therefore, “and/or” is correct in describing
       the required support.


Our Response
For contract H92222-10-D-0018, task order 11, the Director discussed details of task
order deliverables; however, the audit report addresses issues with unclear requirements.
The reports listed in the deliverable section are not directly associated with Systems
Engineering and Configuration Management Support reports indicated in the
requirements. Specifically, the requirement for reports is too general and broad as to the
content of the reports or debriefs. The specific content of the reports or debriefs are not
detailed, and there are no specific due dates for the reports or debriefs. In the report, we
discussed the ambiguity created by using “and/or” in contract H92222-10-D-0019, task
order 7. Based on the task order requirements, the contractor may only choose to identify
“pre-boxed” cost factors; however, it may be in the best interest of the Government for
the contractor to develop cost factors from “scratch.” Also, it is unknown which of the
two requirements the contractor should fulfill. However, based on the wording in the
task order requirements, the contractor is not required to perform further work.


                                                   34
Management Comments on Outcomes Not Always Measurable
Examples in the Draft Report
The Director, Special Operations Research, Development, and Acquisition Center,
disagreed with the statement that contract H92222-10-D-0017, task orders 5 and 11 and
contract H92222-10-D-0018, task orders 4 and 13 contained outcomes that were not
always measurable.

For contract H92222-10-D-0017, task order 5, the Director stated,

       [t]his is not a PB task order. This task order is strictly manpower augmentation. The measurable
       outcomes are whether or not the contractor provides the appropriately skilled and qualified
       [subject matter experts] SMEs as detailed in paragraph 2 of Section C. The required standards to
       measure against are detailed in paragraph 3, Service Delivery Summary.

In addition, for task order 11, the Director stated,

       [d]eliverables, paragraph 2.5, are described using the following terms: weekly, daily, bi-annually,
       Friday prebriefs, and 6-8 books annually. Some deliverables are due “as required.” This is
       because the mission of the IATF is dependent upon real-world events and deliverables are linked
       to dynamic findings from the SOCOM GSC process, CONPLANs, OPLANs, policy directives,
       etc. The government knows these deliverables will be required

For contract H92222-10-D-0018, task order 4, the Director stated,

       [t]ypes of deliverables are detailed in paragraph 4.0 for six lines of investigation (4.1.18). Some
       deliverables do not have specific due dates or schedules because the mission of the IATF is
       dependent upon real-world events and deliverables are linked to dynamic findings from the
       SOCOM GSC process, CONPLANs, OPLANs, policy directives, etc. The government knows
       these deliverables will be required during the life of the task order, but cannot predict nor be tied
       to specific schedules or dates. The Basic Contract Service Delivery Summary and Task Order
       Level Service Delivery Summary identify the performance thresholds that apply to all task order
       deliverables.

In addition, for task order 13, the Director stated,
       [t]his task order is strictly manpower augmentation. The measurable outcomes are
       whether or not the contractor provides the appropriately skilled and qualified SMEs as
       detailed in paragraph 2 of Section C. The require standards to measure against are
       detailed in paragraph 3, Service Delivery Summary.

Our Response
We believe contract H92222-10-D-0017, task order 5 is performance-based.
Specifically, FAR 37.601 states performance-based contracts for services shall include a
PWS, measurable performance standards, and the method of assessing contractor
performance against the performance standards. The GBPS IDIQ contract also states that
a contractor will provide a PWS in response to the Government’s Statement of
Objectives. Based on FAR 37.601 and the GBPS IDIQ contract, the task order was a
performance-based task order. Specifically, the task order contained a PWS and a
Service Delivery Summary that listed performance standards and a method of evaluation.


                                                    35
However, the Service Delivery Summary, Metric-Performance Threshold located in the
table is not a measurable standard for outcomes simply stated as “electronic resumes.”

Further, for task order 11, the section cited in the Director’s comments addresses
“additional, firm deliverables.” However, we did not raise concerns about those
deliverables. The wording discussed in the report states, “outcomes vary dependent on
mission requirement changes and may include items, such as terrorism threat level
assessments, group or individual profiles, threat warnings, link analysis, special
assessments, and forecasts.” The use of “may” does not contractually require the
contractor to provide the listed outcomes, and does not identify how many
(quantity) and when (delivery date) those outcomes are required.

For contract H92222-10-D-0018, task order 4, we disagree that deliverables (such as
briefings or papers, discussion papers, issue specific studies, official messages, and
operational and administrative calendars) can be measured based on the basic contract
Service Delivery Summary or Task Order Level Service Delivery Summary. The
deliverables listed in the PWS do not have associated timeframes. Without a measurable
timeframe, the contractor cannot be held to “no more than 2 working days late” because
there is no required date to provide the deliverable.

In addition for task order 13, we disagree that the task order is not performance based.
Specifically, FAR 37.601 states performance-based contracts for services shall include a
PWS, measurable performance standards, and the method of assessing contractor
performance against the performance standards. Further, the GBPS IDIQ contract states
a contractor will provide a PWS in response to the Government’s Statement of
Objectives. Based on FAR 37.601 and the GBPS IDIQ contract, the task order was a
performance-based task order.

Additionally, we disagree that measurable outcomes are whether or not the contractor
provides the appropriately skilled and qualified subject matter experts as detailed in
paragraph 2 of Section C for the following reasons.
      Section 2.0 “Personnel Requirements and Minimum Skills” details the specific
       functional requirements.
      There is no section in the PWS that outlines the deliverables required by the
       Government; therefore, based on the Director’s comments, the contractor is not
       required to provide any outcomes beyond ensuring qualified personnel are onsite.
      Outcomes requested by the Government would have to be directed on a
       continuous basis by Government personnel because the contractor does not have
       formally established outcomes.
      Based on the Director’s comments, providing outcomes would be at the
       contractor’s discretion because they met the outcome of providing qualified,
       onsite personnel.


                                           36
Management Comments on Inherently Governmental Duties
The Director, Special Operations Research, Development, and Acquisition Center, stated
while the statement cannot be verified, the intent of the response was as follows:
       [p]rior to awarding any GBPS task order, a contracting officer reviewed the PWS or
       SOW to ensure there were no inherently governmental duties included. A written
       determination was not prepared at the task order level since a written determination was
       accomplished at the contract level and it was believed the documentation requirements
       had been satisfied.” Henceforth, the subject determination will be prepared for each task
       order and placed in the contract file.

Further, the Director stated, “[i]n no case was a task order awarded without a
contracting officer’s review.”

Our Response
The report states, “nine task orders may have included inherently governmental duties.”
The audit focused on FAR guidance for articulating requirements of a performance-based
task order. Therefore, the report stated “may have included” and was not an indication
that inherently governmental duties were being performed. In addition, the Director
stated that the language in question was removed from five of the nine task orders and
one expired task order. Therefore, the Command met the intent of the report when it
initiated actions to prepare a determination and include the determination in the contract
file for the remaining three task orders.

Management Comments on Task Orders Contained Elements of
a Personal Service Contract
The Director, Special Operations Research, Development, and Acquisition Center,
disagreed with the statement that contract H92222-10-D-0018, task order 7 contained
elements of a personal service contract. Specifically, the Director stated that comments
made within the DoD OIG draft report do not prove task orders were issued for personal
services. He noted the omission of a discussion of the Task Lead for most task orders
and, at a minimum, each GBPS prime contract.

Our Response
The intent of the finding was not to imply that task orders were for personal services, but,
as currently written, there were elements of a personal service contained in the language
of the task orders. Therefore, based on the statement “because the basic GBPS contract
was deemed nonpersonal in nature subsequent task orders were not required to be
reviewed for personal services,” our report finding highlighted the concerns for reviewing
all task orders for personal services. Further, regardless of assigned task leads, if task
orders do not have formally established outcomes, the Government would have to direct
the contractor on a continuous basis for task orders that do not have formally established
outcomes.




                                                  37
Management Comments on Finding B and
Our Responses
The Director, Special Operations Research, Development, and Acquisition Center,
partially agreed with Finding B and provided additional comments.

Management Comments on Price Reasonableness Guidance
The Director, Special Operations Research, Development, and Acquisition Center, agreed
with this paragraph.

Management Comments on Contracting Officers Did Not
Determine Fair and Reasonable Prices for Modifications
The Director, Special Operations Research, Development, and Acquisition Center,
disagreed with the statement that contracting officers did not determine fair and
reasonable prices for modifications.

Management Comments on Time Constraints Should Not
Prevent Documenting Price Reasonableness Determinations
The Director, Special Operations Research, Development, and Acquisition Center, stated
the contracting officer did not state that the lack of time prevented the price
reasonableness determination. However, the Director agreed with the statement that an
independent Government cost estimate was used as a basis for the price reasonableness
determination. USSOCOM already has metrics regarding the contract file
documentation, which encompasses the price reasonableness determination.

Our Response
When we requested documentation, USSOCOM officials did not provide evidence for
price reasonableness determinations. The Director stated that contracting officers used
the competitive proposals received at each task order competition to conduct an analysis
and determine the price proposed to be fair and reasonable. According to
FAR 15.403-4(a)(1)(iii), certified cost or pricing data must be obtained for contract
modifications over the $700,000, regardless of whether cost or pricing data were initially
required. While contracting officers may review competitive proposals received at each
task order competition, cost and pricing data received for the initial task order
competition are not sufficient to determine reasonable price analysis for modifications.

Management Comments on Prior Problems Determining Fair and
Reasonable Prices Were Not Corrected
The Director, Special Operations Research, Development, and Acquisition Center,
disagreed and stated that USSOCOM did take appropriate action. In addition, the
Director stated, “training was provided, new regulations were issued, and metrics were
developed, i.e., HOO contract file.” Further, the Director noted the following statement
is erroneous: “USSOCOM officials stated that no metrics have been established…”



                                            38
In accordance with the USSOCOM FY 2013 Annual Statement of Assurance,
USSOCOM will continue to improve the contract file documentation.

Our Response
We requested evidence that USSOCOM initiated actions based on our previous report.
We acknowledged that USSOCOM did take action, such as providing training and
updating guidance, but USSOCOM officials stated no metrics were established. Further,
USSOCOM did not provide evidence that the metrics were developed, and the Director
stated metrics were not necessary.

Management Comments on the Conclusion
The Director, Special Operations Research, Development, and Acquisition Center,
requested changing the Conclusion to reflect a documentation concern, not a price
reasonableness determination issue. Moreover, the Director stated USSOCOM initiated
actions (and will continue) to improve the quality of contract file documentation.

Our Response
We acknowledge and commend USSOCOM for the actions taken. However, there is no
evidence that price reasonable determinations were performed. The data usage received
at each task order competition was not sufficient to make a determination.
FAR 15.403-4(a)(1)(iii) states that certified cost or pricing data must be obtained for
contract modifications over the $700,000, regardless of whether cost or pricing data were
initially required. While contracting officers may review competitive proposals received
at each task order competition, cost and pricing data received for the initial task order
competition are not sufficient to determine reasonable price analysis for modifications.

Management Comments on Finding C and
Our Response
The Director, Special Operations Research, Development, and Acquisition Center,
partially agreed with Finding C and stated,

       [t]hat action to address the finding is currently ongoing. He also stated that contracting officers
       were conducting and are continuing to conduct an aggressive program to train CORs on the proper
       use of WAWF to process invoices and ensure payment is made only for service rendered. The
       Director further stated that contracting officers only processed [Firm-Fixed Price] invoices based
       on the contracted monthly amounts and the amount is not a “scheduled interval” payment.
       Moreover, the Director stated because of the sound relationship with Government POCs and
       regular interaction with the GBPS prime contractors, contracting officers confidently process
       invoices with no concern or issues with services being received and contractor performance.

Our Response
We commend the contracting officers’ efforts in training the CORs on the use of WAWF
to facilitate processing invoices and ensure payment is made only for services rendered.
We also agree with the Director’s comments that contracting officers only processed
[Firm-Fixed Price] invoices based on the contracted monthly amounts; however, this does
not negate Federal or DoD requirements to verify contractor performance before invoice

                                                  39
payment. As stated above, FAR Subpart 32.905, “Payment Documentation and Process,”
requires invoice payments be made based on receipt of proper invoice and satisfactory
contract performance. In addition, the DoD COR Handbook, March 22, 2012, states that
CORs should monitor contractor performance through review of monthly reports, onsite
visits, surveillance reviews, and contractor billing statements thoroughly and on time to
mitigate the risk of the Government paying for contracted services that have not been
received. While a sound relationship and almost daily interaction with Government point
of contacts and the GBPS prime contractors can be vital to the contract administration
process, the relationships cannot substitute for compliance with required Federal and
DoD guidance. Until the CORs are fully trained to certify invoices in WAWF,
contracting officers should implement procedures to verify contractor performance and
invoices are based on satisfactory contract performance before certifying payments in
WAWF.




                                           40
U.S. Special Operations Command, Special
Operations Research, Development, and
Acquisition Center Comments




                    41
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58
59
